                  U.S. DEPARTMENT OF THE INTERIOR
                               Office of Inspector General




                 Review of National Icon
                      Park Security
Photograph by Katie Balestra




               August 2003
               Report 2003-I-0063
Introduction
                              This assessment is the third in a series of reports concerning
 Background                   the efforts of the Department of the Interior (DOI or
                              Department) to address homeland security issues. This
                              report contains the results of our assessment of the national
                              monuments that have been designated as “icons” due to
                              their prominent historical attraction. The sites that make up
                              the icon category typically draw large numbers of tourists
                              and frequent media attention—factors that make them
                              particularly attractive terrorist targets. The Department has
                              been designated the Lead Federal Agency1, with primary
                              jurisdiction over national icons and monuments.

                              This assessment was conducted by the Office of Inspector
                              General’s Program Integrity Division. The focus of the
                              assessment included security management, staffing, and the
                              use of funding. Information was obtained through site visits
                              to all the designated icon parks, scrutiny of completed
 The St. Louis Gateway Arch
                              security reviews, and by conducting over 50 interviews with
                              Department personnel at all levels.

                              We conducted our evaluation in accordance with the
                              President’s Council on Integrity and Efficiency Quality
                              Standards for Inspections. Accordingly, we included such
                              tests or reviews of records that we considered necessary
                              under the circumstances. In the interest of security, the
                              specific names of the icon parks exhibiting security
                              deficiencies have been withheld.

                              The team’s observations were shared with park management
                              personnel and other Department employees at the
                              conclusion of each site visit. Many changes were made to
                              security countermeasures as a result of our discussions,
                              while other changes, which were pending at the time of our
     Independence Hall

                              1
                               The National Strategy for the Physical Protection of Critical Infrastructures and
                              Key Assets


                                                                      1
visits, have since been implemented. In general, this report
attempts to represent the current status of security measures
at these icon parks, although we recognize that changes and
enhancements are occurring daily. At the conclusion of the
report, we offer ten suggestions for action that we believe
will improve the continuity and efficiency of protection for
our icon parks.

We appreciate the assistance and candor of the members of
the National Park Service and the Department during this
assessment. We found there was a common thread between
assessor and assessee: the desire to improve security.




                     The Statue of Liberty




                                     2
Results in Brief
            The National Park Service (NPS) has failed to successfully
            adapt its mission and priorities to reflect its new security
            responsibilities and commitment to the enhanced protection
            of our nation’s most treasured monuments and memorials
            from terrorism. Our assessment revealed a lack of
            continuity, consistency, and creativity in the planning and
            execution of protection practices for the national icon parks.
            Necessary security enhancements have been delayed,
            postponed, or wholly disregarded while management
            attempts to equally balance security needs with other park
            programs and projects. More than once, we were told by
            park superintendents that they continue to do everything
            they did prior to September 11, in addition to their new
            security responsibilities. While it is commendable that NPS
            wishes to continue providing pre-9/11 services and
            improvements throughout its parks, this approach fails to
            recognize and accept the need to discard the status quo and
            place a higher priority on the timely implementation of new
            security measures. Unfortunately, we believe that current
            funding and staffing will not permit the desired “equal”
            balancing of all programs and projects. In short, it is
            imperative that icon park protection take precedence over all
            other park concerns.

            Throughout our assessment, we encountered management
            officials lacking situational awareness and acceptance of the
            fact that their parks were susceptible to terrorist attacks, and
            they appeared unconvinced that security enhancements
            were necessary. Other officials lacked the expertise and
            resources to effectively assess, determine, and prioritize
            what actions and implementations were necessary.
            Although we found the superintendents to be dedicated to
            the concept of protection and preservation of their parks and
            visitors, many were lacking coherent and qualified direction
            and support from the region, bureau, and the Department
            regarding security augmentation.



                                           3
                                        During our review, we observed security measures that
                                        appeared to have been haphazardly determined and hastily
                                        implemented. At one park, for example, we learned that
                                        security countermeasures were installed at a certain distance
                                        based on aesthetics rather than a scientific blast analysis or
                                        recognized security standards. At two other parks, we
                                        discovered an entrance gate unmanned, unprotected, and
                                        unmonitored just a short distance from what the park
                                        management advised was one of their top three vulnerable
                                        areas. Other security deficiencies included improperly-
                                        distanced vehicle barriers, inoperable security equipment,
Improperly-distanced vehicle barriers   cameras without nighttime capabilities, ineffective alarm
                                        systems, exposed security wiring, and negligent security
                                        personnel.

                                        Security cameras at some icon parks were located at such a
                                        lengthy distance from the monuments, for reasons having
                                        primarily to do with aesthetics and/or historic integrity, that
                                        veils of trees, along with various other impediments,
                                        actually obscured critical areas of vulnerability. While we
                                        recognize the significance of maintaining the historic nature
                                        of these parks, there has to be some room for
                                        accommodating adequate security measures, such as the
                                        aforementioned cameras. Moreover, we discovered many of
                                        these cameras remain unmonitored throughout the day and
                                        go dormant at night, relying then on motion-detection
                                        devices.

                                        Moreover, security equipment is not utilized in the most
                                        efficient manner. Physical security measures at these parks
                                        are assembled in an almost makeshift fashion; security
      A typical screening site          countermeasures (barriers, bollards, cameras, alarms, etc.)
                                        are arranged in disorder and without the supervision of a
                                        trained professional, and therefore do not function to the
                                        highest potential level in order to deter attackers.

                                        Overall, we found the majority of the parks’ screening sites
                                        competent and professionally operated. Most of these sites
                                        made good use of contract personnel who participated in the


                                                                       4
                                          screening process. Unfortunately, however, this
                                          professionalism was not found across the board: we
                                          discovered that a few icon parks were not performing any
                                          checkpoint screening at all, and in some parks that did screen
                                          visitors, it was being done rather poorly. On both occasions
                                          where it was attempted, the assessment team was able to
                                          breach security screening checkpoints with pocket knives.
                                          On one occasion, this was due to intentionally-lowered
                                          magnetometer sensitivity. On another occasion, this was
                                          due to dead batteries in the screener’s wand.

                                          In short, the parks have not felt the pressure to perform, nor
                                          have they been held accountable for their noncompliance.
                                          The NPS and the Department must address these serious
                                          deficiencies within the security and law enforcement
                                          programs in order to adequately protect our national icons.
                                          Greater effort and guidance are needed in order to properly
                                          meet current security demands. Coordination and
                                          communication—two key characteristics of any well-
                                          functioning organization—are lacking. Specifically, we
                                          uncovered an over-reliance on small numbers of protection
                                          rangers and Park Police officers. Reliance on overworked
                                          and understaffed protection rangers and Park Police officers
                                          to provide satisfactory protection at icon parks is unwise.
                                          The park security workforce requires augmentation, and
                                          both current and incoming rangers and officers should
                                          receive more intense training in order to strengthen their
                                          skills and to enhance their ability to execute protection
                                          duties. Furthermore, technological solutions should be
                                          pursued, as well as the use of contract security personnel,
                                          where appropriate.
Security checkpoint at Boston Navy Yard

                                          Despite these shortcomings, however, we have been
                                          encouraged by some creative and concentrated efforts
                                          toward improving the security program within the NPS
                                          recently. We are finally seeing sincere and serious dialogue
                                          in regard to examining the effectiveness of the current
                                          program, and a willingness to consider actions that
                                          transcend the status quo. The necessary infrastructure to
                                          provide the required oversight is finally being put into place


                                                                        5
                    with the Visitor and Resource Protection Directorate, and is
                    rapidly acquiring the desired impact. Notably, both NPS
                    and certain specific icon parks made a number of significant
                    changes throughout the course of this assessment. This is a
                    positive sign. We anticipate many more problems to be
                    addressed and solutions implemented in the near future,
                    and remain hopeful that this effort will continue to flourish.

                    Although protection of resources has always been the
  Security          hallmark of the NPS mission, the need to protect national
Management          icons and monuments from terrorist attack is new and
                    requires the development and coordination of
                    comprehensive policies, practices, and protective measures.
                    Prior to September 11, 2001, the Department and NPS
A chief ranger at   security programs were woefully deficient, if not completely
another icon        nonexistent. In addition, the law enforcement entities whose
park asked, “If     function it was to provide security for these parks were
you can’t protect   imprudently ignored and allowed to erode. Security and
against             law enforcement programs were not viewed as a priority at
everything, why     the time by senior management, and staffing, funding, and
protect against     technology throughout the parks suffered as a result of this
anything?”          neglect. After 9/11, however, security and law enforcement
                    factions received considerable and sudden attention;
                    nevertheless, the pre-9/11 funding and staffing deficit has
                    greatly impacted the parks’ capability to respond swiftly to
                    today’s call for enhanced security measures. With limited
                    resources, the Department and NPS have been challenged in
                    their efforts to carry out their protective mission.

                    In addition to limited resources, the protective mission has
                    been hindered by park managements’ and some field law
                    enforcement officials’ inability to recognize—or accept—the
                    actual threat of terrorism. This finding is troubling, since
                    senior management for both the Department and the NPS
                    have acknowledged and accepted the threat potential of
                    terrorist acts and the need to prepare countermeasures.

                    During our assessment, we found that several parks were
                    deficient in respect to actual situational awareness, and were
                    observed subscribing to lackadaisical security procedures



                                                  6
                   and nonchalance when dealing with the implementation of
                   security measures. There was an overall imbalance between
                   security and accommodation. At one park, convenience for
                   local merchants and employees was given priority over
At yet another     closing a recently-purchased security gate meant to secure a
park, the          specified area of vulnerability. Gates were left open and
designated         unattended at another park for the convenience of local
minimum            residents. At yet another park, the designated minimum
staffing of        staffing of security posts was ignored and, when challenged,
security posts     a United States Park Police official quipped: “You can go
was ignored        under minimum staffing as long as nothing bad happens.”
and, when          A chief ranger at another icon park asked, “If you can’t
challenged, a      protect against everything, why protect against anything?”
United States      During unannounced inspections, we often found that the
Park Police        reported number of officers on duty or standing guard at
official           these parks was not in accordance with the individual park’s
quipped, “You      own reported minimums. Similarly, we frequently observed
can go under       ineffective patrol procedures, poor law enforcement
minimum            visibility, staff fatigue, and the capricious redeployment of
staffing as long   security personnel.
as nothing bad
happens.”          Many of the park officials responsible for making security
                   decisions do not understand the basic objective: a terrorist
                   attack is less likely to occur the more difficult it is for the
                   terrorist to accomplish the deed. Terrorists also seek targets
                   that will provide them with maximum impact and may be
                   aimed at destroying property, killing individuals, or both.
                   Experience has shown that terrorists are interested in
                   attacking symbols of America, and intelligence information
                   suggests that no attack will take place without first
                   scrutinizing a target for its weaknesses and vulnerabilities.
                   If proper security measures are in place when this scrutiny
                   occurs, there is a good chance that the terrorists will seek
                   some other, less protected target. Simply stated, a well-
                   protected, adequately staffed facility will help deter
                   terrorists from attacking it.

                   The goal, however, is not to develop a foolproof security
                   plan. Recognizing that an asset cannot be protected
                   completely without absorbing much higher costs and


                                                  7
                                                     without inhibiting some business operations, a balance
                                                     between cost-effective security and visitor accommodation
                                                     must be maintained in order for each park to both function
                                                     and protect itself to the highest possible extent. Therefore,
                                                     the goal in instituting icon park security measures should be
                                                     to make it more difficult for an adversary to breach security
                                                     and effectively execute an attack.

          At one park, the                           Many of the efforts to date fall short of reaching a deterrence
          chief ranger                               level for “pre-screening” by terrorists. Many of the parks
          admitted that he                           have failed to provide adequate training to their respective
          was told the                               non-law enforcement staff concerning the identification and
          park could not                             reporting of suspicious persons and activities. At several
          afford the                                 parks, during the unannounced period of our assessments,
          transition to an                           the team went unchallenged when taking photographs of
          orange alert, and                          security-sensitive areas or while accessing controlled areas
          that he was not                            without identification. At another location, team members
          to implement the                           strolled through a restricted area past several employees,
          increased                                  who did not make any attempt to stop or report the incident
          security.                                  to security personnel. The team was challenged at a few of
                                                     the parks, but the parks’ follow-through proved inadequate:
                                                     park security personnel did not always perform the
                                                     appropriate steps to assure a proper negation of the
                                                     prospective threat.

                                                     A standard protection plan needs to be developed for icon
                                                     parks. Currently, each park has separate operational
                                                     policies and staffing methodologies that not only fail to
                                                     coincide but, in some instances, actually negate each other.
                                                     For instance, visitor screening is not done at every park, the
   Simulated explosives placed next to a critical
structure went undetected for several hours during   ratio of law enforcement officers on duty per area or per
                    high alert.
                                                     visitor varies, and the use of closed-circuit television
                                                     cameras is different at each location. Some security
                                                     personnel often appear confused about the specifics of their
                                                     mission, which results in complacency and a sense of
                                                     frustration and disinterest among law enforcement
                                                     personnel. Also, some NPS officials exhibit an air of
                                                     insolence while others feel unappreciated in the face of what
                                                     they view as an overwhelming task not fully under their
                                                     control.


                                                                                    8
                     There is also significant confusion in respect to the national
We also believe      alert levels. Each park has developed its own response plans
that the             for heightened threat levels. When inspected, a number of
designation of an    parks were discovered to be implementing their own
icon park should     interpretations of national threat levels—which some
ensure that the      characterized as the “flavors of orange.” The reasons varied,
park is recognized   but most were founded on a lack of clear direction from the
within an            regional offices as well as the Department. At one park, the
exclusive category   chief ranger admitted that he was told the park could not
for budget,          afford the transition to an orange alert, and that he was not
staffing, and        to implement the increased security. At other parks, staff
matters of policy.   believed they only had to increase security based on park-
                     specific threat levels and that the national threat levels did
                     not mandate an official reaction. One Park Police official
                     wanted to know when he would again be able to “bring
                     officers back down to normal shifts.” A number of icon park
                     officials also seemed to be under the impression that orange
                     alert was not intended to last longer than a few days.

                     However, Regional NPS offices and the Department have
                     failed on occasion to provide the necessary preparedness
                     and guidance to the parks during increased levels of threat.
                     Confusion also has been generated by the Office of Law
                     Enforcement and Security (OLES) modifying or enhancing
                     threat levels and security measures in response to special
                     initiatives, such as Operation Liberty Shield2, which became
                     known as “enhanced orange” by some NPS officials. At
                     other times, icon parks have been inundated with multiple
                     calls and governances from Headquarters, Regional offices,
                     and OLES, confusing the matter even more.

                     In conducting our assessment, we visited each of the
                     designated icon parks under the management of the NPS.
                     While there, we met with the management teams and
                     inquired as to how the icon list was generated. Collectively,
                     no one could state how certain parks, monuments, and
                     memorials were included and what criterion was used.

                     2
                       Concentrated security enhancement coinciding with the commencement of the
                     Iraqi war


                                                          9
                     Most agreed that the list was produced shortly after
                     September 11, when a “budget call” was made for parks that
The majority of      needed increased security funding. The parks that received
the parks relied     funds from the supplemental funding became known and
on their chief       referred to as icon parks. In discussions with OLES, we later
law enforcement      learned that NPS senior management subsequently
officer or ranger    endorsed the original list of icon parks at least two times,
to make security-    and then submitted them to the Department to be included
related decisions.   in a broader list of DOI key assets3.
During our
interviews, we       This icon list includes several parks and monuments with
learned that few     international recognition and indisputable threat potential4,
of these law         such as the Statue of Liberty, the Liberty Bell, Independence
enforcement          Hall, and the Washington Monument. Others on the list do
officials had ever   not possess the same degree of recognition and threat
received any         potential. When questioned, OLES advised us that the list of
physical security    icon parks submitted to OLES was not “second-guessed,”
training and         despite some disagreement with several of the parks on the
were similarly       list. Key NPS officials have also questioned the legitimacy of
ill-suited to        several of the parks being included on the key asset and icon
manage such          lists.
responsibilities.
                     No official priority listing or other designated category for
                     the icon parks exists. Theoretically, while each park was
                     placed on the list due to an increased likelihood of attack,
                     specified vulnerability (significant loss of life and/or
                     symbolic value), or a need for increased security measures,
                     we found that the icon parks were not equally treated by the
                     NPS or by OLES. We also could not detect any across-the-
                     board minimum standards for security.

                     In addition, several of these parks encompass icons that are
                     not the property of DOI, or are they under the management
                     of the National Park Service or Department of the Interior.
                     The USS Constitution and USS Arizona, for example, remain
                     commissioned ships of the United States Navy, while Fort
                     Point National Historic Site houses the east footing of the
                     3
                       “Key assets” have been identified as locations warranting additional security
                     measures due to their mission, value, or symbolic status
                     4
                       “Threat potential” estimates an asset’s attractiveness as a target in respect to
                     potential attacks


                                                             10
Golden Gate Bridge. The NPS and the Department certainly
have some security responsibilities at these locations;
however, we believe the property owners should retain
greater, if not primary, responsibility for these assets.

We believe that the designation of an icon park should
ensure that the park is recognized within an exclusive
category for budget, staffing, and matters of policy. With
the exception of receiving supplemental funding, many
superintendents claimed there were no other benefits to
being recognized as an icon park. Moreover, only a few
superintendents believed their requests were viewed and
acted upon differently than their non-icon park
contemporaries. We were provided anecdotal accounts of
security-related projects awaiting State Historical Prevention
Office (SHIPO) approval, and being held up by non-
security/lower-priority requests. Other examples included
the regional offices changing priorities of park security
projects and giving them a lower priority than non-icon
security projects.

Icon status has also not reduced the expectation of
continuing to support all other park functions, programs,
and projects. Several of the icon superintendents reported
that, whereas security was a significant concern, it was only
one of many of the competing programs at their parks.

In conducting our assessment, we found all icon parks to be
lacking access to a certified, full-time security professional.
Individually, most parks have done as well as could be
expected given the limited guidance and technical support
received from the Department or NPS. For years,
superintendents and their staffs have been placed in position
to determine what security measures to implement, with
little or no guidance from qualified security professionals.

The NPS is well aware of the importance of retaining a full-
time security professional, and is currently in the final stages
of bringing a qualified candidate onboard. This individual,
they maintain, will facilitate dialogue among the parks, NPS,


                              11
and the Department, conduct specific assessments of each
icon park, and will ultimately provide a much clearer
direction to the field. Currently, at the time of this report,
this position is held by a temporary security officer who has
illustrated to NPS the importance of attaining a full-time
security specialist. OLES has only recently filled its
permanent security manager position.

Several of the icon parks, including the Statue of Liberty, did
possess individuals assigned to the position of security
officer; however, those individuals also maintained a
number of collateral duties. In the case of the Statue of
Liberty, a Park Police sergeant was designated as the
security specialist, but also performed the duties of primary
squad supervisor, training officer, firearms instructor, and
fitness instructor. Interestingly, we were notified one week
following our assessment visit to Ellis and Liberty islands
that Park Police senior management had abruptly
designated the sergeant as the full-time security specialist
and had relieved him of all other duties. We fully support
the expediency of this action; however, we recommend that
this security specialist, and all other security specialists,
complete an adequate training course and obtain
appropriate certifications.

Many of the icon park superintendents we interviewed
acknowledged that access to an in-house security
professional would be beneficial to their programs. Most
stated that they felt inadequate making serious security
decisions based on their own limited training and lack of
expertise in this field. The majority of parks relied on their
chief law enforcement officer or ranger to make security-
related decisions. During our interviews, we learned that
few of these law enforcement officials had ever received any
physical security training and were similarly ill-suited to
manage such responsibilities.

Lacking qualified security professionals and staff within
both the Department and Bureaus, the Department has
learned to rely primarily on private security contractors to


                              12
                                            complete security risk and vulnerability reviews. The
      OLES not only                         various assessments and reviews have employed a variety of
      has been able to                      evaluative formulas and tools to produce specific
      increase                              recommendations. This has led to the NPS being provided
      advocacy for the                      with individual assessments for each icon park with no
      icon parks, but                       methodology to use the information globally or compare
      has also been                         results. We found some of these assessments to be of
      instrumental in                       questionable value, and we doubt the effectiveness of many
      getting results in                    of the measures that these particular assessments
      a timely fashion.                     recommended for implementation. Hence, there remains no
                                            single individual or group responsible, or capable, of
                                            professionally reviewing the security needs of the NPS icon
                                            parks, and to effectively recommend a specified, unified
                                            course of action to senior NPS management.

                                            In addition, we became aware that some individual
                                            assessments were manipulated or otherwise influenced by
                                            park management in order to find a balance between park
                                            accommodations as opposed to real security concerns. Thus,
                                            we are concerned with the integrity of these
                                            recommendations having been impaired by management
                                            intervention.

                                            The NPS also lacks a comprehensive protection plan for its
Security measures at the Lincoln Memorial
                                            icon parks. As a result of operating without a service-wide
                                            plan, the NPS’s efforts remain dependent upon each
                                            individual superintendent’s willingness to adhere to and
                                            interpret the security program. This is a poor
                                            implementation of security measures, since the program
                                            itself lacks standards for NPS visitor screening, surveillance
                                            cameras, contract security guards, and vulnerability
                                            assessments. Until just recently, little evidence existed that
                                            icon park managers even communicated outside their
                                            respective boundaries in order to seek advice or to identify
                                            best practices. Recently, we were pleased to discover that
                                            the Northeast Region instituted regular icon park conference
                                            calls. This practice should be replicated in other Regions.




                                                                          13
                   We were also recently advised that Sandia National
                   Laboratories5 is developing a much needed methodology to
                   aid in the ranking of DOI’s assets and setting priorities for
                   security actions. Sandia’s project team has visited several of
                   the icon parks in order to incorporate the issues unique to
                   those specific locations. The project is being jointly funded
                   by the Bureau of Reclamation and the NPS. The use of a risk
                   matrix would greatly assist the Department and NPS with
                   evaluating its key assets and can then serve as a consistent,
                   universal measuring tool.

                   When questioned, most park officials indicated that support
  OLES and         received from the Department’s Office of Law Enforcement
  the Icon         and Security varied from park to park. At two locations, the
   Parks           park superintendent and chief ranger had never even heard
                   of OLES. A third park official admitted to very little direct
                   involvement with OLES, although the communication and
                   assistance received was said to be constructive and a “breath
“This is my
                   of fresh air.” Several park officials reported receiving
house,” remarked
                   valuable assistance from OLES: for instance, the
one Park Police
                   superintendents at the Statue of Liberty and Independence
official, “and I
                   Hall welcomed OLES to their parks and found their support
know what is
                   to be both necessary and advantageous.
wrong in my
house. I don’t
                   OLES not only has been able to increase advocacy for the
need everyone
                   icon parks, but has also been instrumental in getting results
telling us what
                   in a timely fashion. At one location, we encountered the
we need to do
                   perimeter security to be grossly ineffective. We briefed the
different and
                   superintendent, detailing our concerns and
what we are
                   recommendations, but received no assurance of a timely
doing wrong.”
                   resolution. After briefing OLES on the situation they, too,
                   visited the park, made the same observations and
                   conclusions, and directed that the perimeter be reinforced.
                   Soon after, the perimeter was properly secured, negating the
                   observed vulnerability.




                   5
                    Sandia is a multiprogram laboratory operated by Sandia Corporation, a
                   Lockheed Martin Company, for the United States Department of Energy’s
                   National Nuclear Security Administration


                                                       14
During a visit to    Overall, there remain conflicting impressions of OLES.
one of the most      Confusion arises from the multiple instructions received by
vulnerable of the    each individual icon park from OLES, particularly when
icon parks, we       OLES bypasses the NPS chain-of-command and often
were told, “We       provides direction to parks which conflicts with more formal
know what is best.   NPS instruction. The NPS feels it cannot hold the icon park
We do not need       superintendents accountable for what they fail to do if their
anyone coming        direction comes from another source, such as OLES.
here to tell us      Likewise, a similar problem occurs when, for example, the
what to do.”         region decides parks should not advance to higher threat
                     levels when OLES says they should. On a few occasions, we
                     were told that parks were directed by OLES to take actions
                     that were especially costly, despite the absence of a specified
                     funding source.

“I’m not concerned   During a visit to one of the most vulnerable of the icon
about al-Qaeda. I    parks, we were told, “We know what is best. We do not
am more concerned    need anyone coming here to tell us what to do.” This same
with individuals.    official made the following remark concerning terrorist
Al-Qaeda has         threats: “I’m not concerned about al-Qaeda. I am more
never been around    concerned with individuals. Al-Qaeda has never been
here before.”        around here before.” These remarks were alarming, telling,
                     and unfortunate. In addition, we found several other
                     officials discounting the terrorist threat notwithstanding
                     repeated national alerts. “This is my house,” remarked one
                     Park Police official, “and I know what’s wrong in my house.
                     I don’t need everyone telling us what we need to do
                     different and what we are doing wrong.”

                     Protection rangers and Park Police officers are the
   Staffing
                     foundation of icon park security. The events of September
                     11 and the resultant augmentation of security have had an
                     incredible impact on both parks and law enforcement
                     officers service-wide: rangers have been detailed from their
                     permanent parks to supplement the icon park forces, leaving
                     many other parks with an atrophied and weakened
                     protection staff. Several non-icon park superintendents have
                     voiced concerns that their rangers have been detailed to the
                     parks with designated icon status.




                                                   15
                     Early on in our assessment, we found the NPS’s process of
                     detailing rangers somewhat confusing. Rangers were
                     traveling from icon park to icon park, seemingly without
                     discretion, and the entire process proved unorganized and
On one occasion,     ineffectual. On a few occasions, rangers assigned to icon
we witnessed a       parks were detailed to other parks, necessitating other
Park Police          rangers being detailed to cover their absence. Quite often,
officer leave his    detailed rangers reported to their assignments late, and
assigned post—       would leave early. There appeared to be very little
without relief—      coordination. Recently, however, NPS has implemented a
to purchase          more thoughtful response to this problem: the development
lunch….When          of two teams of rangers, with one designated as a “quick
this situation       response” unit and another as a “rapid deployment force.”
was brought to       NPS is now able to quickly detail a designated group of
the attention of a   rangers assigned to nearby national parks within six to eight
Park Police          hours of notice. This immediate response group is then
supervisor, the      relieved by a group of rangers that are on standby
supervisor’s         deployment within 24 hours, in most cases. NPS law
reply was,           enforcement management has scheduled the standby duties
“Nothing I can       on what they refer to as the “fair share concept,” and they
do about that.       have exempted icon park and border rangers.
The guy has to
eat.”                In addition to the detailing of rangers, most protection
                     rangers and Park Police officers assigned to icon parks have
                     been forced to work 12-hour shifts for extended periods of
                     time, with little time off since September 11, 2001. It was
                     reported that officers were working 12-hour shifts seven
                     days a week for several months and with no days off. These
                     officers only recently began receiving one day off per week.
                     We have a concern about the long-term effectiveness of the
                     protection staff and the officers who operate under these
                     intense conditions. Fatigue and waning morale often
                     impede an officer’s perspicacity. A representative of one
    Out to lunch     ranger group characterized the exhausted state of the
                     protective ranger workforce as “setting up to fail.” He also
                     provided examples of some rangers being “constantly on the
                     move” between homeland security assignments and wildfire
                     duties. At one of the most prominent of the icon parks, a
                     single officer working a 12-hour shift was responsible for
                     monitoring 101 different security cameras on eight different


                                                  16
The impact of the   security monitors. Despite occasional breaks, this is an
additional          arduous and taxing assignment for any officer, let alone for
security            an officer required to put in so many unassisted hours.
responsibilities
has affected all    The impact of the additional security responsibilities has
NPS programs        affected all NPS programs across the board. The protection
across the board.   workforce has been the most dramatically impacted, and the
The protection      role of the protection ranger has made a significant
workforce has       exemplary shift. Recently, there has been increased
been the most       discussion throughout the NPS concerning the use of Park
dramatically        Police officers and protection rangers for sentry-like
impacted, and       functions at icon parks. Some NPS managers and employees
the role of the     question whether current position descriptions allow the use
protection ranger   of protection rangers for guard duties. Others recommend
has made a          replacing protection rangers with US Park Police Officers at
significant         all urban parks. We do not believe the Park Police would be
exemplary shift.    able to absorb these extra duties nor would they find
                    themselves equipped to perform such tasks. In fact, the two
                    locations that the Park Police maintain primary security
                    responsibilities for are wrought with deficiencies, which
                    suggest they would not be the best choice.


The “icon” status   We believe the NPS must examine the practicality of
does not            utilizing private (contract) security guards, or perhaps NPS
automatically       security guards in conjunction with protection rangers, to
incorporate         relieve the current workforce. We also believe the NPS and
additional          the Department would benefit greatly from increased
staffing for the    exploitation of technical solutions in lieu of the more
mandatory           traditional, personnel-intensive solutions.
increase in
protection.         Requiring police officers and protection rangers to perform
                    sentry duties for extended periods of time is not in the best
                    interest of the officers nor, for that matter, the Department
                    itself. Few officers and rangers have received training as
                    sentries and are more accustomed to random police patrol.
                    Most officers do not want to perform sentry-like duties,
                    particularly for long periods of time, and become
                    discontented and unmotivated. On one occasion, we
                    witnessed a Park Police officer leave his assigned post—
                    without relief—to purchase lunch. This officer’s negligence


                                                  17
                       left a national monument and its contract screeners without
                       an immediate law enforcement presence. When this
                       situation was brought to the attention of a Park Police
                       supervisor, the supervisor’s reply was, “Nothing I can do
                       about that. The guy has to eat.”

                       Another staffing issue concerns the disparate staffing levels
                       at icon parks. There exists no specific staffing model or
                       methodology for designated icon parks. Because of this lack
                       of methodology, we found one urban icon park to have as
The Lincoln Memorial
                       few as two protection rangers on duty during daytime
                       hours. Worse, it was not uncommon to find examples of no
                       law enforcement presence on duty at some other parks. The
                       “icon” status does not automatically incorporate additional
                       staffing for the mandatory increases in protection. With the
                       exception of the Boston Navy Yard, no icon park has
                       received a significant amplification of permanent rangers
                       since September 11. Even more remarkable, many of the
                       parks are currently operating with protection forces below
                       pre-9/11 levels.

                       At one park, prior to 9/11, we found that money for six
     Funding
                       additional protection rangers was supplied, but after
                       deductions for assessments and an overall park deficit, one
                       ranger had been hired and only three new positions had
                       certificates issued. When questioned about this, the chief
                       ranger advised us she “had to wait,” and that the money
                       was “needed elsewhere.” Soon after our visit, she was told
                       she could advertise a noncompetitive reassignment she had
                       requested. But three months after our visit, only one
                       position had been filled in addition to the one previously
                       noted.

                       Shortly after the attacks on September 11, the Department
                       received $92 million in supplemental funding from
                       Congress, $63,248,000 of which was allocated to the NPS.
                       This funding was to provide relief for the costs associated
                       with increased security and emergency construction relating
                       to security at icon parks. In June 2002, we conducted a
                       review to determine whether the bureaus had implemented


                                                    18
Simply stated,     strategies and controls to ensure that the funding was used
while the NPS      for the desired purpose. During this review, we examined
recognizes the     the expenditures and uses of the supplemental funding
importance of      received by the NPS and were satisfied that NPS had closely
awarding special   monitored and properly disbursed the funding.
parks with high-
profile status,    The only significant misuse of funding did not involve this
they have failed   supplemental funding, but previous years’ funding
to apply a         earmarked for physical security. For example, we found that
similar status     one park had received $40,000 in 1999 to install closed-circuit
when it comes to   cameras at the park, but that the superintendent redirected
prioritizing       the money to other non-security activities. The funding was
funding.           also included in the park’s base funding and has been
                   appropriated for the past four years. Shamefully, no camera
                   system exists today despite the significant need for one. To
                   make matters worse, the park has actually submitted a new
                   funding request to install a camera system throughout the
                   park. Incidents like this highlight the need for continuous
                   OLES review of the use of security funding.

                   A portion of the supplemental funding received was used to
                   pay for increased temporary staffing at parks and dams.
                   Due to monetary restrictions, however, no new permanent
                   positions were gained and, once the money was spent, no
                   permanent increase in security was realized. We learned
                   that estimates of security needs and costs were typically
                   drawn up in unreasonably short timeframes—some as quick
                   as three hours—then submitted to the regions and, later, to
                   Congress for approval. By all accounts, the early projections
                   on costs and needs proved inaccurate and insufficient.

                   In the days immediately following September 11, the icon
                   parks found themselves in a rush to implement additional
                   security, to determine what security measures were
                   insufficient, and request funding adequate enough to bring
                   park security up to new minimum levels. Without
                   comprehensive security analyses and with little to no
                   understanding of the equipment, procedures, and personnel
                   necessary to successfully enact such change, icon parks




                                                 19
                                             submitted timely but ill-conceived funding requests for each
                                             icon park.

                                             Finally, when a park uses detailed rangers, expenses are
                                             incurred not only for that officer’s per diem and travel but,
                                             many times, for a replacement for the detailee’s home park
                                             as well. Regardless of whether or not a backfill (often in the
                                             form of overtime) is necessary, the use of detailees is
                                             significantly more expensive than the cost of hiring a
                                             permanent ranger. At one park, for example, the daily cost
                                             of the cheapest detailee equaled 1 ½ times the cost of the
                                             average daily payroll of a GS 7/4 permanent ranger on
                                             overtime. It is our opinion that the use of detailees is not an
                                             adequate long-term solution to the problem.

                                             For many years, NPS has attempted to treat all parks
                                             equally: we were repeatedly told funding requests from the
                                             Statue of Liberty, for example, were given the same
                                             consideration as funding requests from Badlands National
                                             Park in South Dakota. There was no distinction.
                                             Conversely, the events of September 11, 2001, should have
The Jefferson Memorial with the Washington   demonstrated to NPS the need to prioritize security
       Monument in the background
                                             measures at certain high-profile parks, but the organization
                                             has been slow in shifting its funding philosophy to
                                             effectively meet these needs. Simply stated, while the NPS
                                             recognizes the importance of awarding special parks with
                                             high-profile status, they have failed to apply a similar status
                                             when it comes to prioritizing funding. Though icon parks
                                             received base increases in recognition of their distinctive
                                             security needs, some of the money received by these parks
                                             has been redistributed to non-icon parks.




                                                                           20
Conclusion
                     Progress has been realized in the Department’s efforts to
                     develop and enhance security at our national icon parks.
                     The most significant advancements have been made within
                     the last three months and, in all likelihood, improvements
                     will continue to be made in the foreseeable future. The
                     Department and NPS were slow to react to the newly
                     required security mission and spent precious months
The most
                     entangled in bureaucratic dialogue and inaction while
disturbing
                     security enhancements were addressed solely by the
discoveries were
                     temporary deployment of rangers and Park Police officers.
the
                     Now that OLES staffing levels are adequate and serious
misrepresentation
                     planning and direction are underway, the newly created
of security
                     office is finally fulfilling its envisioned role. The NPS law
implementation
                     enforcement and security program has also progressed,
and the failure of
                     albeit at a much slower pace, and will eventually reach its
key personnel to
                     potential—if supported by senior NPS management in
accept the actual
                     regard to staffing and funding.
threat potential
present at their
                     The assessment revealed some serious deficiencies with the
parks.
                     overall security program of the Department and NPS. Some
                     are a result of the infancy of the program and the initial lack
                     of organizational infrastructure, but others are more serious
                     flaws—a failure of Departmental managers to embrace and
                     support the security mission, for example. The most
                     disturbing discoveries were the misrepresentation of
                     security implementation and the failure of key personnel to
                     accept the actual threat potential present at their parks.

                     At a time when our country’s susceptibility to attack is at the
                     forefront of concern, every reasonable course of preventative
                     action must be taken. After conducting this assessment, we
                     believe that, as of now, this is not the case.




                                                   21
Suggested Actions
        1.   The Department should revisit the definitions of key assets
             and critical infrastructures provided by the Homeland
             Security Department with a view toward refining NPS’s icon
             park list. Once an updated list is established, the NPS
             should maintain universal security standards at all icon
             parks, which include a minimum of countermeasures and
             staffing.

        2.   The Department must clarify the role of OLES in the
             planning, management, and oversight of its key assets. The
             responsibility for planning and implementing security
             countermeasures at icon parks and other key assets should
             be a collaborative effort between OLES and the respective
             bureaus. Bureaus must recognize and accept OLES’s
             continuous involvement with key asset security. OLES must
             develop, in collaboration with the NPS, policies and
             procedures concerning resolution of operational concerns
             involving icon security.

        3.   The Secretary should firmly establish the Deputy Assistant
             Secretary of Law Enforcement as the individual with final
             authority to decide the outcome of any internal conflict
             relative to key asset protection.

        4.   The Department and NPS should ensure, through senior
             management discussions, directives, and in-service training,
             that organizational commitments and responsibilities for key
             asset security are widely known and supported throughout
             the Department and NPS.

        5.   The Department and NPS must increase the accountability
             of all officials responsible for providing or overseeing
             security at key asset locations. Modifications to operational
             plans and security countermeasures should not occur
             without proper notification and approval. OLES security



                                           22
     audits should continue in order to determine compliance
     with established policies and procedures.

6.   Recognizing the importance of protecting national icon
     parks, and the responsibilities attendant to Homeland
     Security in general, NPS should consider grouping the icon
     parks in a separate category, outside of the traditional
     regional grouping for all security-related matters, including
     funding. This would allow for more specific oversight of the
     icon parks, streamline the notification and reporting process
     during increased national threat levels, and enhance
     communications with external entities, such as the
     Department of Homeland Security.

7.   Icon parks with the most significant threat potential should
     have trained and certified security managers on-site.

8.   Security assessments of icon parks should be conducted and
     completed every three years by a single source, coordinated
     through the NPS security manager, utilizing a standard risk
     assessment methodology. Additionally, the Department of
     Homeland Security’s threat levels need to be strictly adhered
     to by all icon parks. OLES should ensure that random
     testing of these security procedures takes place and that all
     approved plans have been fully implemented.

9.   NPS should explore the use of contract security guards—
     both armed and unarmed—to complement protection now
     provided by existing NPS rangers and police officers. It
     should be noted that a pilot project at one icon park is
     currently underway. If this pilot is successful, the NPS and
     the Department should seriously consider the benefits of
     establishing a DOI security guard force with a limited scope
     of authority for the purpose of providing physical security
     protection for all key assets throughout the Department.




                                  23
10.   Security awareness training should be provided for all
      employees at each icon park. At the minimum, this training
      should consist of identification of suspicious persons,
      packages, and occurrences, with special attention on
      identifying and reporting individuals conducting
      surveillance.




                                  24
   How to Report Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone, Office of Inspector
General staff, departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Northern Pacific Field Office     916-978-5630*
             Internet:
             http://www.oig.doi.gov/hotline_form.html
             *Use Western Region Investigations telephone number until further notice




                      U.S. Department of the Interior
                        Office of Inspector General
                            1849 C Street, NW
                          Washington, DC 20240
                                  www.doi.gov
                                 www.oig.doi.gov




                                                        25
